UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




          Audit of the NLRB
 Fiscal Year 2010 Financial Statements

                  Report No. OIG-F-15-11-01




                                              December 2010
INSPECTOR GENERAL




                NATIONAL LABOR RELATIONS BOARD

                       WASHINGTON, DC 20570

December 15, 2010

I hereby submit the Audit of the National Labor Relations Board's (NLRB) Fiscal
Year (FY) 2010 Financial Statements, Report No. OIG-F-15-11-01.

The Accountability of Tax Dollars Act of 2002 requires that the NLRB prepare
and submit to the Congress and the Director of the Office of Management and
Budget (OMB) an audited financial statement.

We contracted with Carmichael, Brasher, Tuvell & Company (CBTC) to perform
the audit. The objectives of the audit were to issue an opinion on the fair
presentation of the principal financial statements, obtain an understanding of
the Agency's internal controls, and test compliance with laws and regulations
that could have a direct and material effect on the financial statements. The
audit was conducted by CBTC in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and OMB
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

This document is the Office of Inspector General's comprehensive report related
to auditing the Agency's financial statements and includes CBTC’s independent
auditors’ report and management letter; NLRB's financial statements and
related notes; and management's responses to both the independent auditors’
report and management letter.

CBTC is responsible for the independent auditors’ report and the conclusions
expressed in the report. We reviewed CBTC's report and related documentation
and inquired of its representatives. Our review, as differentiated from an audit
in accordance with generally accepted government auditing standards, was not
intended to enable us to express, and we do not express, opinions on the
NLRB's financial statements or internal control or conclusions on compliance
with laws and regulations. Our review disclosed no instances in which CBTC
did not comply, in all material respects, with generally accepted government
auditing standards.
On November 9, 2010, we transmitted CBTC’s independent auditors’ report,
which was included in the Agency's FY 2010 Performance and Accountability
Report. The audit results were:

   The financial statements present fairly, in all material respects, the financial
    condition and activity of the NLRB as of and for the years ending September
    30, 2009 and 2010.

   The tests on internal controls showed:

       o No material weaknesses in controls over financial reporting were
         identified.

       o A significant deficiency in internal controls was found, as evidenced
         by the combination of deficiencies to be in compliance with laws
         related to the Antideficiency Act, the bona fide needs rule, and the
         recording statute, as described below, and the lack of a system to
         prevent or detect violations. A significant deficiency is a deficiency, or
         combination of deficiencies, in internal controls that is less severe
         than a material weakness, yet important enough to merit attention by
         those charged with governance.

    CBTC’s opinion did not provide any assurances on the effectiveness of
    internal control over financial reporting. Providing assurances on internal
    control or on the effectiveness of NLRB’s internal control over financial
    reporting was not an objective of the audit.

   The following instances of noncompliance with laws and regulations were
    identified:

       o The Agency did not adhere to the recording statute and the bona fide
         needs rule when the Office of Employee Development recorded certain
         obligations for training.

       o The Agency did not adhere to the recording statute and the bona fide
         needs rule when it contracted for court reporting services.

       o The Agency violated the Antideficiency Act when the Office of Equal
         Employment Opportunity purchased food as meals for employees.

       o The Agency violated the Antideficiency Act when the Acquisitions
         Management Branch entered into a prohibited personal services
         contract.

       o The prior year violation in which the Agency did not adhere to the


                                         2
         bona fide needs rule when it purchased $250,000 of postage on
         September 29, 2009, was reported again.

   No other instances of noncompliance with laws and regulations that would
   be reportable under U. S. generally accepted government auditing standards
   or OMB audit guidance were found. Providing an opinion on compliance
   with laws and regulations, however, was not an objective of the audit and,
   accordingly, such an opinion was not expressed.

CBTC’s independent auditors’ report did not include any recommendations for
corrective action. CBTC’s management letter contains recommendations to
address the significant deficiency in internal controls and the four current year
instances of noncompliance with laws and regulations. The management letter
also provided information on the status of prior year recommendations.

In their comments to the management letter, the Chairman and Acting General
Counsel stated that they are committed to making changes as are necessary or
appropriate to ensure a properly controlled financial environment. To that end,
they plan to undertake a comprehensive review of the Agency’s financial
management structure. They also stated that they are currently drafting an
appropriate report for the Antideficiency Act violations and will defer
formulating a course of action regarding noncompliance with proper recording
and the bona fide needs rule until a Comptroller General decision is received.

The Agency’s comments on the audit report were incorporated in their entirety
into the independent auditors’ report. The Agency’s comments on the
management letter are presented in their entirety as an appendix to this report.




                                     David P. Berry
                                     Inspector General




                                        3
                                     TABLE OF CONTENTS

Independent Auditors’ Report ................................................................ 1

Management Letter ............................................................................... 7

NLRB Financial Statements.................................................................. 20

Notes to Principal Statements.............................................................. 24

APPENDIX

    Memorandum from the Chairman and Acting General Counsel,
    Response to Draft Management Letter to Carmichael Brasher Tuvell &
    Company on Audit of National Labor Relations Board’s Fiscal Year
    2010 Financial Statements (OIG-F-15-11-01a) (the “Draft
    Management Letter”), dated December 7, 2010
C E R T I F I E D     P U B L I C     A C C O U N T A N T S



INDEPENDENT AUDITORS’ REPORT


To David P. Berry, Inspector General
National Labor Relations Board

The Accountability of Tax Dollars Act of 2002 made the National Labor Relations Board
(NLRB) subject to the annual financial statement reporting requirements of the Chief Financial
Officers Act of 1990, which requires agencies to report annually to Congress on their financial
status and any other information needed to fairly present the agencies’ financial position and
results of operations.

The objectives of the audit are to express an opinion on the fair presentation of NLRB’s principal
financial statements, obtain an understanding of the Agency’s internal control, and test
compliance with laws and regulations that could have a direct and material effect on the financial
statements.

We have audited the balance sheets of NLRB as of September 30, 2010 and 2009, and the related
consolidated statements of net cost, changes in net position, and budgetary resources for the
years then ended.

NLRB’s management is responsible for preparing the financial statements in conformity with
accounting principles generally accepted in the United States of America; establishing,
maintaining, and assessing internal controls over financial reporting; preparing the
Management’s Discussion and Analysis (MD&A); and complying with laws and regulations.

Our responsibility is to express an opinion on the Fiscal Year (FY) 2010 and 2009 financial
statements of NLRB based on our audit. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements. These standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial statements are free
of material misstatements. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audit provides a reasonable
basis for our opinion.

OPINION ON FINANCIAL STATEMENTS

In our opinion, the financial statements referred to above present fairly, in all material respects,
the assets, liabilities, and net position of NLRB, as of September 30, 2010 and 2009; and the net
cost, changes in net position, and budgetary resources for the years then ended in conformity
with accounting principles generally accepted in the United States of America.
REPORT ON INTERNAL CONTROL

In planning and performing our audit, we considered NLRB’s internal control over financial
reporting as a basis for designing our auditing procedures for the purpose of expressing our
opinion on the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in OMB Bulletin No. 07-04. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982, such as those controls relevant to ensuring efficient operations.
The objective of our audit was not to provide assurance on internal control or on the
effectiveness of NLRB’s internal control over financial reporting. Because of inherent
limitations in internal control, misstatements due to error or fraud, losses, or noncompliance may
nevertheless occur and not be detected. Consequently, we do not provide an opinion on the
effectiveness of NLRB’s internal control over financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the organization’s financial statements will not be
prevented, or detected and corrected on a timely basis. A significant deficiency is a deficiency,
or a combination of deficiencies, in internal control that is less severe than a material weakness,
yet important enough to merit attention by those charged with governance.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies in
internal control over financial reporting that might be deficiencies, significant deficiencies, or
material weaknesses. We did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. However, we identified
a significant deficiency in the NLRB's internal control as evidenced by the combination of
deficiencies to be in compliance with laws related to the Anitdeficiency Act, the bona fide needs
rule, and the recording statute, as described in the next section, and the lack of a system to
prevent or detect such violations. NLRB’s management response to our significant deficiency is
included in Appendix A with our assessment of management’s response at Appendix B.

We also identified other matters in internal control that came to our attention during our audit
that we communicated in writing to the management of NLRB and those charged with
governance.

We considered NLRB’s internal control over Required Supplementary Information (RSI) by
obtaining an understanding of the Agency’s internal control, determining whether these internal
controls had been placed in operation, assessing control risk, and performing tests of controls as
required by OMB Bulletin No. 07-04. The objective of our audit was not to provide assurance
on these internal controls. Accordingly, we do not provide an opinion on such controls.

REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS

As part of obtaining reasonable assurance about whether the Agency’s financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations specified in
OMB Bulletin No. 07-04. We limited our tests of compliance to these provisions and we did not
test compliance with all laws and regulations applicable to NLRB. We caution that
noncompliance may occur and not be detected by these tests and that such testing may not be
sufficient for other purposes.

Our tests of compliance with certain provisions of laws and regulations discussed in the
preceding paragraph disclosed the following instance of noncompliance reported in the previous
fiscal year that continues to be required to be reported under U. S. generally accepted
government auditing standards and OMB audit guidance.

       FY 2009 and 2010

       U. S. Code, Title 31, Section 1502(a), the bona fide needs rule, states “The
       balance of an appropriation or fund limited for obligation to a definite period is
       available only for payment of expenses properly incurred during the period of
       availability or to complete contracts properly made within that period of
       availability and obligated consistent with section 1501 of this title. However, the
       appropriation or fund is not available for expenditure for a period beyond the
       period otherwise authorized by law.”

       NLRB did not adhere to the bona fide needs rule when NLRB’s Division of
       Administration purchased $250,000.00 of postage on September 29, 2009 that
       was neither necessary to meet the need of FY 2009 nor was it necessary to avoid a
       disruption of the NLRB’s operations.

       In the FY 2009 Management Letter, we recommended that NLRB de-obligate the
       $250,000 in prepaid postage. NLRB management did not agree with this
       recommendation.

       FY 2010

       U. S. Code, Title 31, Section 1501(a)(1), the recording statute, states that an
       amount shall be recorded as an obligation only when supported by documentary
       evidence of a binding agreement between an agency and another person or agency
       that is in writing, authorized by law, and executed before the end of the period of
       availability for obligation of the appropriation or fund used.

       NLRB did not adhere to the recording statute or the bona fide needs rule when, on
       September 28, 2010, the Office of Employee Development recorded an obligation
       of $39,000 in training costs for two (2) participants to be trained in January 2011
       at the Federal Executive Institute. The agreement for the training was not
       executed prior to the end of the period of availability for the FY 2010
       appropriation and the training was not a bona fide need of FY 2010.

       NLRB did not adhere to the recording statute or the bona fide needs rule when, on
       September 28 and 29, 2010, the NLRB obligated $876,374 for thirty-six (36)
       contracts for court reporting services. The contracts created a liability that is
       contingent upon a court reporter being scheduled for a hearing. Contingent
       liabilities are not recordable as obligations under the recording statute.
       Additionally, the court reporting expenses for FY 2011 are not a bona fide need of
       FY 2010.

       U. S. Code Title 31, Section 1301(a) states “Appropriations shall be applied only
       to the objects for which the appropriations were made except as otherwise
       provided by law.”

       NLRB’s Office of Equal Employment Opportunity (OEEO) purchased food for
       meals for employees. This is not an allowable expenditure under NLRB’s
       appropriation and is a violation of the Antideficiency Act.

       Furthermore, the NLRB Acquisitions Management Branch violated the
       Antideficiency Act when it entered into a prohibited personal services contract for
       $124,800 with a labor relations services contractor.

Except as noted above, our tests of compliance with selected provisions of laws and regulations
disclosed no other instances of noncompliance that would be reportable under U. S. generally
accepted government auditing standards or OMB audit guidance.

Providing an opinion on compliance with laws and regulations was not an objective of our audit
and, accordingly, we do not express such an opinion.

OTHER ACCOMPANYING INFORMATION

Our audit was conducted for the purpose of forming an opinion on the financial statements of
NLRB taken as a whole. The accompanying financial information is not a required part of the
financial statements.

The other accompanying information included in the MD&A and RSI sections of the
Performance and Accountability Report are required by the Federal Accounting Standards
Advisory Board and OMB Circular A-136, Financial Reporting Requirements. We have applied
limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of the information. We did not audit the other
accompanying information and, accordingly, do not express an opinion or any other form of
assurance on it.

This communication is intended solely for the information and use of the management of NLRB,
others within the organization, OMB, and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.

CARMICHAEL, BRASHER, TUVELL & COMPANY, PC



Atlanta, Georgia
November 9, 2010
APPENDIX A – MANAGEMENT’S RESPONSE TO SIGNIFICANT DEFICIENCY



                 UNITED STATES GOVERNMENT

                NATIONAL LABOR RELATIONS BOARD
                Washington, D.C. 20570




   November 9, 20 10


  Carmichael, Brasher, Tuvell & Company, PC
  Atlanta, Georgia

  To Whom It May Concern:

   We are in receipt of your draft Independent Auditor's Report with respect to the Financial
   SlatemeniS of the National Labor Relations Board for the fiscal year ended September 30, 2010.

  We are extremely concerned with your finding of a "significant deficiency in the NLRB's internal
  control" and have initiated a comprehensive review of this matter. Please be assured that we are
  committed to making whatever structural and other changes may be necessary or appropriate to
  ensure a properly controlled financial environment We appreciate your diligent efforts to bring
  this critical matter to our anention.

  Sincerely,




  Wilma B. Liebman
  Chairman
      APPENDIX B – CBTC’S ASSESSMENT OF MANAGEMENT’S RESPONSE TO
                          SIGNIFICANT DEFICIENCY


CBTC has reviewed NLRB management's response to the reported significant deficiency made
in connection with our audit of NLRB's 2010 Financial Statements which is included as
Appendix A.

We believe Management's proposed actions are responsive to our significant deficiency,
however; the significant deficiency will remain open pending our follow up review of NLRB's
corrective actions once implemented.
MANAGEMENT LETTER

To David P. Berry, Inspector General
National Labor Relations Board

We audited the financial statements (balance sheet, and the related statements of net cost,
changes in net position, and statement of budgetary resources, hereinafter referred to as
“financial statements”) of the National Labor Relations Board (NLRB) as of and for the years
ended September 30, 2010 and 2009, on which we issued an unqualified opinion dated
November 9, 2010.

In planning and performing our audit, we considered NLRB’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of its internal controls,
determined whether internal controls had been placed in operation, assessed control risk, and
performed tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial statements. We limited our internal control testing to
those controls necessary to achieve the objectives described in the Office of Management and
Budget's (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, but
not for the purpose of expressing an opinion on the effectiveness of NLRB’s internal control.
We have not considered the internal control structure since the date of our report.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance.

As noted in our Report on Internal Control, we identified a significant deficiency in the NLRB's
internal control as evidenced by the combination of deficiencies to be in compliance with laws
related to the Antideficiency Act, the bona fide needs rule and the recording statute; and the lack
of a system to prevent or detect such violations.

During our audit, we also noted certain matters involving the internal control structure and other
operational matters that are presented in this letter for your consideration. These issues and
related recommendations have been discussed with the appropriate members of NLRB’s
management and are intended to improve the internal control structure or result in operating
efficiencies. NLRB’s written responses to these matters identified in our audit have not been
subjected to the auditing procedures applied in the audit of the financial statements and,
accordingly, we express no opinion on them.

We reviewed all four open recommendations made in the prior years’ management letters (two
from 2009, one from 2007, and one from 2006) and determined the status of corrective actions
for each. Management has completed one recommendation, partially completed two
recommendations, and decided not to implement the fourth one. NLRB’s written responses to the
prior years’ management letter comments have not been subjected to the auditing procedures
applied in the audit of the financial statements and, accordingly, we express no opinion on them.
The report is intended for the information and use of those charged with governance and
management of NLRB, the Office of Inspector General, others within the organization, OMB,
and the U.S. Congress, and is not intended to be and should not be used by anyone other than
those specified parties.

CARMICHAEL BRASHER TUVELL & COMPANY



November 9, 2010
                                SIGNIFICANT DEFICIENCY


#1 Internal Controls in the Agency’s Procurement Function

Condition

During the FY 2010 Financial Statement Audit, we identified a significant deficiency in the
NLRB's internal control as evidenced by a combination of deficiencies to be in compliance with
laws related to the Antideficiency Act, the bona fide needs rule, and the recording statute. Those
matters are detailed as items 2 through 5 below.

Cause

The NLRB procurement function does not have sufficient internal controls to ensure that the
Agency adheres to the relevant laws and regulations. In the non-compliances with laws and
regulations noted above, the internal controls were insufficient to prevent these violations from
occurring.

Effect

Because the internal controls over the procurement function were insufficient, the Agency is
putting itself at risk for additional deficiencies related to violations of laws and regulations.

Criteria

The Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government states that “internal control is a major part of managing an organization. It
comprises the plans, methods, and procedures used to meet missions, goals, and objectives and,
in doing so, supports performance-based management. Internal control also serves as the first
line of defense in safeguarding assets and preventing and detecting errors and fraud.”

Recommendation

We recommend that the Agency establish a system of internal controls to ensure that laws and
regulations relating to procurement are properly applied. These controls may include but are not
limited to:

1. Establishment of a Chief Financial Officer outside of the Division of Administration that
   reports to those charged with governance;

2. Utilization of legal counsel to review non-GSA schedule contracts and contracts over
   specified monetary amount prior to award to determine compliance with the Federal
   Acquisition Regulation (FAR);

3. Creation of a formalized system of training contracting officers; and
4. Initiation of a quality control review system prior to issuing contracts that would include
   peer review.

Management’s Response
NLRB is extremely concerned with the significant deficiency in internal control and has initiated
a comprehensive review of this matter. NLRB’s Chairman and General Counsel stated that the
Agency is committed to making necessary or appropriate changes to ensure a properly controlled
financial environment.

In a response dated December 7, 2010, the Chairman and Acting General Counsel stated that
before any action is taken in regard to creating a new Chief Financial Officer position, they plan
to undertake a comprehensive review of the Agency’s financial management structure, including
the possible engagement of outside experts.

CBTC’S Assessment of Management’s Response
We believe Management's proposed actions are responsive to our significant deficiency,
however; the significant deficiency will remain open pending our follow up review of NLRB's
corrective actions once implemented.
                               MANAGEMENT COMMENTS


#2 Non-Compliance with the Recording statute and the Bona fide Needs rule - Training

Condition
The National Labor Relations Board (NLRB) requested and received seven slots for U.S. Office
of Personnel Management training at the Federal Executive Institute (FEI). The cost of the
training is $19,500 per participant. On September 28, 2010, the Agency used the Standard Form
182, Authorization, Agreement and Certification of Training (SF 182) to obligate $39,000 in
Fiscal Year (FY) 2010 funds for the cost of two participants' attendance at the January 2011 FEI
session. The SF 182s were processed internally by the Agency, but were not forwarded to FEI
until October 15, 2010. The Agency did not execute the FEI agreement for the training slots
until October 12, 2010, and did not forward the agreement to FEI until October 15, 2010.

Cause
The Director, Office of Employee Development, stated that he charged the obligation against the
FY 2010 funds because the time between the end of FY 2010 and the training in January 2011
was short and the scheduling was beyond his control.

Effect
The Office of Employee Development violated the recording statute, 31 U.S.C. § 1501, and the
bona fide needs rule when it charged the obligations for the training occurring in January 2011
against the FY 2010 funds.

Criteria
31 U.S.C. § 1501(a)(1), states that an amount shall be recorded as an obligation only when
supported by documentary evidence of a binding agreement between an agency and another
person or agency that is in writing, authorized by law, and executed before the end of the period
of availability for obligation of the appropriation or fund used. Additionally, 31 U.S.C. §
1502(a) provides that funds from a fixed-term appropriation are "available only for payment of
expenses properly incurred during the period of availability or to complete contracts properly
made within that period of availability and obligated consistent with [31 U.S.C. § 1501]."

Additionally, an agency may only obligate a fiscal year appropriation to meet a legitimate, or
bona fide, need arising in the fiscal year for which the appropriation was made. 64 Comp.Gen.
359, 362 (1985). Training obligations are charged against the appropriation in the year in which
the training is received. B-233243, Aug. 3, 1989; B-212141-O.M., Mar. 29, 1984. Comptroller
General Decisions have found that training that crosses fiscal years or starts at the beginning of
the fiscal year to be properly charged to the earlier fiscal year. See, 70 Comp. Gen. 296 (1991);
B-233243, Aug. 3, 1989; and B-213141, Mar. 29, 1984.

Recommendation
We recommend that the Agency deobligate $39,000 of FY 2010 funds used for the training and
obligate that amount, in addition to the remaining $97,500 that has not been recorded, using FY
2011 funds.
Management’s Response
The Division of Administration responded by stating that as early as May 14, 2010, it identified a
need to provide the training to recently appointed senior level managers and that it committed to
using the January 2011 FEI training slots in June 2010. The Division of Administration also
stated that the agreement between the NLRB and FEI for the training did not constitute an
obligation, but was "just a commitment to pay, when the time comes, for the slots identified."
The Division of Administration asserted that the SF 182s were the "actual obligating
documents," and that they were "operative documents that serve to obligate the funds for the
training purpose specified on the forms." The Division of Administration described the
agreement with FEI as "internal FEI documents that serve to allocate the available slots among
numerous agencies." The Division of Administration also stated that other unidentified agencies
use funds from one fiscal year to pay for training in the following fiscal year and that FEI will
accept such funds.

In a response dated December 7, 2010, the Chairman and Acting General Counsel stated that the
Agency will defer formulating a course of action until a decision is received from the
Comptroller General.
 
CBTC’S Assessment of Management’s Response
The Division of Administration comments do not sufficiently address the issue that the
agreement to commit the Agency funds was not completed until October 2010 (after the fiscal
year-end). NLRB knew the training would take place in FY 2011 and should have known that
the training was a bona fide need of that fiscal year. The fact that FEI accepted payments from
other agencies from funds obligated in the prior fiscal years is not an adequate argument to
support NLRB’s position. NLRB has not pointed to any statutory or regulatory authority to
support its position.

CBTC continues to recommend that the Agency deobligate $39,000 of FY 2010 funds used for
the training and obligate that amount against FY 2011 funds. Additionally, the NLRB OIG
submitted this issue to GAO for a Comptroller General’s decision.

CBTC will follow up in the next fiscal year audit after a decision is received from the
Comptroller General.
                               MANAGEMENT COMMENTS


#3 Antideficiency Act Violation due to OEEO Food Purchases

Condition
The Office of Equal Employment Opportunity (OEEO) purchased and served food as part of its
2010 National African American History Month program. The serving of food at this event
constituted a meal. Because there is no authority to use appropriated funds to provide a meal to
its employees, the NLRB violated the Antideficiency Act. The NLRB OIG reviewed FY 2006 to
FY 2009 and discovered similar food purchases made by OEEO which were also possible
violations of the Act. The violations have not been reported in accordance with statutory
requirements and OMB guidance.

Cause
NLRB OEEO was not aware of the requirements for purchasing food for its programs and the
Division of Administration did not have internal controls in place to identify inappropriate
purchases on the OEEO purchase card.

Effect
The OEEO purchase of food for its cultural awareness and other programs violated the purpose
statute, 31 U.S.C. § 1301(a). A violation of the purpose statute is a violation of the
Antideficiency Act.

Criteria
As a general rule, the Agency may not use appropriated funds to purchase food for its
employees. B-301184, Jan. 15, 2004 (citing B-288266, Jan. 27, 2003). There are a number of
narrow exceptions to this general rule. One of the exceptions allows for the purchase of food
that is provided to employees as a sampling of ethnic food, but the Agency is prohibited from
using appropriated funds to provide a meal to its employees.

"Appropriations shall be applied only to the objects for which the appropriations were made
except as otherwise provided by law." 31 U.S.C. § 1301(a). This statute prohibits charging
unauthorized items to any appropriation. See, U.S. Government Accountability Office,
Principles of Federal Appropriation Law 4-5 (3d ed. 2004).

The Antideficiency Act prohibits an agency from incurring obligations in excess or in advance of
available appropriations. 31 U.S.C. § 1341(a)(1)(A). When appropriated funds are applied to a
prohibited or unauthorized purpose, an Antideficiency Act violation occurs because the
obligation of the funds are viewed as being in excess of the amount (zero) available for that
purpose. 60 Comp. Gen 440, 441 (1981); see also B-302710, May 14, 2004; B-300325, Dec. 13,
2002; B-300192, Nov. 13, 2002; B-290005, July 1, 2002; 71 Comp. Gen. 402, 406 (1992); and
B-246304, July 31, 1992; cf Southern Packaging and Storage Co. v. United States, 588 F. Supp.
532 (D.S.C. 1984).

Recommendation
We recommend that the Antideficiency Act violations that occurred in FY 2006 through FY
2010 be reported in accordance with the statutory requirements and OMB guidance.
Management’s Response
The Division of Administration disagreed that an Antideficiency Act violation should be
reported.

In a response dated December 7, 2010, the Chairman and Acting General Counsel stated that
they are in agreement with our recommendations and are in the process of drafting an
appropriate report in accordance with OMB guidance.

CBTC’S Assessment of Management’s Response
The Division of Administration has not pointed to any statutory or regulatory authority to
support its position that an Antideficiency Act violation need not be reported. CBTC continues
to recommend that Antideficiency Act violations that occurred in FY 2006 through FY 2010 be
reported in accordance with the statutory requirements and OMB guidance.

CBTC will follow up in the next fiscal year audit after we have received NLRB’s report prepared
in accordance with OMB guidance as stated in the NLRB board’s response dated December 7,
2010.
                               MANAGEMENT COMMENTS


#4 Non-Compliance with the Recording statute and the Bona fide Needs rule – Court
Reporting Services

Condition
The NLRB recorded obligations in the amount of $876,374 for 36 contracts for court reporting
services. Obligations for the contracts were recorded against Fiscal Year (FY) 2010 funds on
September 28 and 29, 2010. Each of the contracts has a period of performance spanning from
FY 2010 to FY 2011.

The Chief, Acquisitions Management Branch, stated that he intended to create a contract for
severable services. He stated that he wanted to avoid an indefinite-quantity or requirements
contract because he was attempting to eliminate the need to make multiple obligations, the need
for minimum requirements, and the requirement to use a single contractor in a particular Region.
He acknowledged that the court reporting contracts were not reviewed by legal counsel. He
stated that the amount of funding for each contract was based upon an estimate of the needs for
court reporting services in each Region, which was derived from the prior year's needs. He also
stated that there were seven uses of court reporters under the contracts in FY 2010.

The contracts describe the contract type as a "firm fixed unit price." Based upon our review of
the contracts, we determined that they are requirements contracts.

Cause
The NLRB procurement function does not have sufficient internal controls to ensure the proper
application of the laws and regulations related to the contracts for court reporting.

Effect
The NLRB violated the recording statute, 31 U.S.C. § 1501, and the bona fide needs rule, 31
U.S.C. § 1502, when it charged nonexistent obligations against the FY 2010 funds.

Criteria
The court reporting contracts, as requirement contracts without any specified minimum quantity,
create a liability that is contingent upon a court reporter being scheduled for a hearing.

"Contingent liabilities are not recordable as obligations under section 1501 of title 31, United
States Code (the recording statute), because they are not yet liabilities; that is, the agency has
taken no action making a definite commitment, nor has the agency permitted some other entity to
take an action that could mature into a legally enforceable claim against the United States.
Rather, a contingent liability ripens into a recordable obligation for purposes of section 1501
only if and when the contingency materializes." B-305484. Therefore, no recordable obligations
occurred when the court reporting contracts were executed on September 28 and 29, 2010.

Additionally, an agency may only obligate a fiscal year appropriation to meet a legitimate, or
bona fide, need arising in the fiscal year for which the appropriation was made. 64 Comp.Gen.
359, 362 (1985). The court reporting services are not a bona fide need until they are incurred by
the Agency. Therefore, any expenses incurred for court reporting services are obligations of the
fiscal year in which they occur.

Recommendation
We recommend that the Agency deobligate the funds for the court reporting contracts, except for
the seven uses that occurred in FY 2010, and record obligations for FY 2011 requirements
against the FY 2011 funds as they occur.

Management’s Response
The Division of Administration responded that the contracts were not issued as a requirements
contracts and noted that the contracts did not contain the requirements contract clause (FAR
52.216-21), nor did it include any language establishing it as a requirements contract. The
Division of Administration stated that the contracts have specific fixed unit prices for all
services; that, although the total amounts may need to be adjusted, the amount obligated is
believed to be consistent with the usage of these services in previous years; and that the contracts
are a commitment of a certain amount of funds for a 12-month period. Although the Division of
Administration makes this argument, it states that it would consider making a clarification, by
modification, of the type of contract to a requirements contract, since the intended fixed-prices
have an amount based on a competent estimate rather than an amount certain." The Division of
Administration also cites a number of Comptroller General decisions for authority to record a
contingent liability.

In a response dated December 7, 2010, the Chairman and Acting General Counsel stated that the
Agency will defer formulating a course of action until a decision is received from the
Comptroller General.

CBTC’S Assessment of Management’s Response
We disagree with the analysis of the Division of Administration. The Comptroller General
decisions cited by the Division of Administration do not support the proposition that the NLRB
can record any obligation prior to Agency making a definite commitment of funds.

CBTC continues to recommend that the Agency deobligate certain court reporting services from
FY 2010 funds and record future obligations against FY 2011 funds. Additionally, the NLRB
OIG submitted this issue to GAO for a Comptroller General’s decision.

CBTC will follow up in the next fiscal year audit after a decision is received from the
Comptroller General.
                               MANAGEMENT COMMENTS


#5 Antideficiency Act Violation due to Personal Service Contract

Condition
The NLRB entered into a contract with a contractor (a former employee) for "Independent
Contractor Labor Relations Support" for a period of performance from April 15, 2010 to October
15, 2010 at a cost of $62,400. On September 30, 2010, the NLRB extended the period of
performance to April 2011, at a total cost of $124,800.

The contract does not require any specific tasks to be completed, but provides a list of duties of
which one or all may be required to be performed. This list appears to be drawn from an NLRB
employee position description. The contractor stated that her duties do not differ from the former
employees who performed the work, with the exception that she cannot speak for the Agency.

The performance under the contract occurs at the NLRB Headquarters; the principal tools and
equipment required for the contractor's performance are provided by the NLRB; the services
provided by the contractor are an integral effort of the NLRB's labor relations function; the need
for the services can reasonably be expected to last more than 1 year; and the nature of the
services requires Government supervision to ensure that the interests of the NLRB are
adequately protected, that the NLRB retains control over its labor relations program, and that the
NLRB retains full personal responsibility for the labor relations function in a duly authorized
Federal employee.

Cause
The procurement function is not operating with sufficient internal controls in that the NLRB's
Acquisitions Management Branch did not perform an adequate procedural or legal review prior
to executing the contract.

Effect
The NLRB violated the Antideficiency Act when it entered into a prohibited personal services
contract with a contractor for "Independent Contractor Labor Relations Support."

Criteria
The contract for labor relations services is a personal services contract as it is defined by 48
C.F.R. 37.104. A personal services contract is characterized by regulation as one in which an
employer-employee relationship is created between the NLRB and contractor personnel. The
relationship may be created by the terms of the contract or by subjecting contractor personnel to
relatively continuous supervision and control by NLRB employees. Because the NLRB does not
have statutory authority to enter into a personal services contract, it is prohibited from doing so
by 48 C.F.R. 37.104.

As noted above, the Antideficiency Act prohibits an agency from incurring obligations in excess
or in advance of available appropriations. When appropriated funds are applied to a prohibited
or unauthorized purpose, an Antideficiency Act violation occurs because the obligation of the
funds are viewed as being in excess of the amount (zero) available for that purpose.
Recommendation
We recommend that the Agency:

1. Terminate the contract with the contractor; and

2. Report the Antideficiency Act violation in accordance with the statutory requirements and
   OMB guidance.

Management’s Response
The Division of Administration acknowledged the concerns raised and stated that it would
immediately remedy the deficiencies in the contract by terminating the present contract and
issuing a replacement contract. The contract was terminated on November 19, 2010. The
Division of Administration disagreed that there was a violation of the Antideficiency Act that
needed to be reported.

In a response dated December 7, 2010, the Chairman and Acting General Counsel stated that
they are in agreement with our recommendations and are in the process of drafting an
appropriate report in accordance with OMB guidance.

CBTC’S Assessment of Management’s Response
The Division of Administration has not pointed to any statutory or regulatory authority to
support its position that the Antideficiency Act violation need not be reported. CBTC continues
to recommend that the Antideficiency Act violation be reported.

CBTC will follow up in the next fiscal year audit after we have received NLRB’s report prepared
in accordance with OMB guidance as stated in the NLRB board’s response dated December 7,
2010.
                          #6 PRIOR YEAR RECOMMENDATIONS

Open Prior Year Management Letter Recommendations
Four prior year management letter recommendations were open during FY 2010. As shown in
the table below, management has completed action on one recommendation, partially completed
action on two recommendations, and decided not to implement the fourth recommendation.

              Prior Year Recommendation                           Current Year Status
FY 2006 Management Letter
Implement the recommendations summarized in INDR          Partially complete.
No. 5-2006. These related to information technology
(IT) security vulnerabilities.

FY 2007 Management Letter
Ensure that IT personnel with security-related duties     Partially complete.
receive the training required by NLRB’s ITSEAT
policy. If sufficient funding is not available, free IT
training should be pursued.

FY 2009 Management Letter
Deobligate $250,000 of postage advanced from FY 2009 Management decided not to
funds and re-obligate the postage advance using FY   implement this recommendation.
2010 funds.

Develop and implement procedures to monitor postage Complete.
that would ensure that purchases and distribution to the
field offices would only be made when needed.
  PRINCIPAL FINANCIAL STATEMENTS
                                   National Labor Relations Board
                                            Balance Sheet
                                           As of September 30, 2010 and 2009
                                                      ( in dollars )
                                                                                    FY 2010           FY 2009
 Assets:
    Intragovernmental:
        Fund balance with Treasury (Note 2)                                    $ 36,676,482)     $ 27,295,075)
        Advances (Note 4)                                                              23,336)         276,086)
 Total Intragovernmental                                                           36,699,818)       27,571,161)


     Accounts receivable, net (Note 5)                                                 92,784)           36,307)
     General property, plant and equipment, net (Note 6 and 10)                    12,349,329)       10,180,286)
 Total Assets                                                                  $ 49,141,931)     $ 37,787,754)


 Liabilities:
    Intragovernmental:
        Accounts payable (Note 7)                                              $    1,927,377)   $    1,439,222)
        Employer contributions and payroll taxes                                    2,155,315)        1,888,037)
        FECA liability (Note 8 and 10)                                               641,628)          785,013)
        Other                                                                        140,060)          151,222)
 Total Intragovernmental                                                            4,864,380)        4,263,494)


    Accounts payable (Note 7):                                                     10,522,138)        5,311,634)
    Estimated future FECA liability (Note 8 and 10)                                 1,746,665)        2,511,450)
    Accrued payroll and beneﬁts                                                     8,960,673)        8,089,841)
    Accrued annual leave (Note 8 and 10)                                           15,064,659)       14,691,885)
 Total Liabilities                                                             $ 41,158,515)     $ 34,868,304)


 Net position:
    Unexpended appropriations                                                  $ 12,994,255)     $ 10,691,205)
    Cumulative results of operations (Note 10)                                     (5,010,839)       (7,771,755)
 Total Net Position                                                            $    7,983,416)   $    2,919,450)
 Total Liabilities and Net Position                                            $ 49,141,931)     $ 37,787,754)




The accompanying footnotes are an integral part of these ﬁnancial statements
                                   National Labor Relations Board
                                         Statement of Net Cost
                                   For the Periods Ended September 30, 2010 and 2009
                                                       ( in dollars )
                                                                               FY 2010          FY 2009
 Program Costs:


 Resolve Representation Cases


 Total Gross Cost                                                        $     48,476,133   $   45,368,125


 Resolve Unfair Labor Practices


 Total Gross Cost                                                        $ 247,582,839      $ 231,417,384


 Other:
    Gross Costs                                                                   59,371          132,918
     Less: Earned Revenue                                                         59,371          132,918


 Total Net Cost – Other                                                                 –                –
 Net Cost of Operations (Note 11)                                        $ 296,058,972      $ 276,785,509




The accompanying footnotes are an integral part of these ﬁnancial statements
                                    National Labor Relations Board
                                   Statement of Changes In Net Position
                                   For the Periods Ended September 30, 2010 and 2009
                                                       ( in dollars )
                                                                               FY 2010             FY 2009


 Cumulative Results of Operations:
    Beginning Balance                                                   $      (7,771,755)       $ (7,330,398)


 Budgetary Financing Sources:
    Appropriations-used                                                     279,343,472)         260,063,478


 Other Financing Sources (Non-Exchange):
    Imputed ﬁnancing costs (Note 13)                                         19,476,416)          16,280,674
 Total Financing Sources                                                $ 298,819,888)       $ 276,344,152


    Net Cost of Operations                                                  (296,058,972)    (276,785,509)


 Net Change                                                             $      2,760,916)    $      (441,357)


 Cumulative Results of Operations (Note 10)                            $      (5,010,839)    $ (7,771,755)


 Unexpended Appropriations:
     Beginning Balance                                                  $ 10,691,205)        $     9,160,197)


 Budgetary Financing Sources:
     Appropriations-received                                                283,400,000)         262,595,000)
     Appropriations-used                                                    (279,343,472)    (260,063,478)
     Recissions & cancelled appropriations                                     (1,753,478)        (1,000,514)
 Total Budgetary Financing Sources                                      $      2,303,050)    $     1,531,008)


 Total Unexpended Appropriations                                        $ 12,994,255)        $ 10,691,205)


 Net Position                                                          $       7,983,416)    $     2,919,450)




The accompanying footnotes are an integral part of these ﬁnancial statements
                                  National Labor Relations Board
                                  Statement of Budgetary Resources
                                  For the Periods Ended September 30, 2010 and 2009
                                                      (in dollars)
                                                                            FY 2010              FY 2009

Budgetary Resources:
   Unobligated balance, brought forward, October 1:                    $       4,171,569)   $     4,610,732)
   Recoveries of prior year unpaid obligations                                  973,430)           840,433)
   Budget authority:
       Appropriations (Note 14)                                            283,400,000)         262,595,000)
       Spending authority from offsetting collections:
       Earned
       Collected                                                                211,226)           216,802)
       Subtotal                                                            283,611,226)         262,811,802)
   Permanently not available (Note 14)                                      (1,753,478)          (1,000,514)
Total Budgetary Resources (Note 15)                                    $ 287,002,747)       $ 267,262,453)


Status of Budgetary Resources:
   Obligations incurred:
     Direct                                                            $ 282,467,777)       $ 262,958,149)
     Reimbursable                                                                59,371)           132,735)
     Subtotal (Note 15)                                                $ 282,527,148)       $ 263,090,884)
   Unobligated balance:
     Apportioned (Note 15)                                                     1,403,931)          336,774)
     Unobligated balance not available                                         3,071,668)         3,834,795)
Total Status of Budgetary Resources                                    $ 287,002,747)       $ 267,262,453)


Change in Obligated Balance:
   Obligated balance, brought forward, October 1:                      $ 22,972,285)        $ 17,199,031)
   Obligations incurred, net                                               282,527,148)         263,090,884)
   Gross Outlays                                                        (272,465,179)        (256,477,197)
   Recoveries of prior year unpaid obligations, actual                          (973,430)          (840,433)
Obligated balance, net, end of period:                                 $ 32,060,824)        $ 22,972,285)


Net Outlays:
   Gross outlays                                                           272,465,179)         256,477,197)
   Offsetting collections                                                       (211,226)          (216,802)
Net Outlays                                                            $ 272,253,953)       $ 256,260,395)

The accompanying footnotes are an integral part of these ﬁnancial statements
   NOTES TO PRINCIPAL STATEMENTS
NOTE 1.                                                          prescribed by the Federal Accounting Standards Advisory
                                                                 Board (FASAB), which is the ofﬁcial standard-setting body
SUMMARY OF SIGNIFICANT                                           for the federal government. While the statements have
ACCOUNTING POLICIES                                              been prepared from the books and records of the NLRB in
                                                                 accordance with GAAP for federal entities and the formats
                                                                 prescribed by OMB, the statements are in addition to the
A. Reporting Entity                                              ﬁnancial reports used to monitor and control budgetary
                                                                 resources which are prepared from the same books and
The National Labor Relations Board (NLRB) is an                  records. These ﬁnancial statements present proprietary and
independent federal agency established in 1935 to                budgetary information.
administer the National Labor Relations Act (NLRA). The
NLRA is the principal labor relations law of the United          The Balance Sheet presents agency assets and liabilities,
States, and its provisions generally apply to private sector     and the difference between the two, which is the agency
enterprises engaged in, or to activities affecting, interstate   net position. Agency assets include both entity assets —
commerce. The NLRB’s jurisdiction includes the U.S. Postal       those which are available for use by the agency—and non-
Service (other government entities, railroads, and airlines      entity assets —those which are managed by the agency but
are not within the NLRB’s jurisdiction). The NLRB seeks          not available for use in its operations. Agency liabilities
to serve the public interest by reducing interruptions           include both those covered by budgetary resources (funded)
in commerce caused by industrial strife. The NLRB                and those not covered by budgetary resources (unfunded).
does this by providing orderly processes for protecting          Effective for period beginning after September 30, 2008,
and implementing the respective rights of employees,             the investments made for backpay funds will not be
employers, and unions in their relations with one another.       recognized on the balance sheet of any federal entity. A
The NLRB has two principal functions: (1) to determine           note disclosure is still required to provide information
and implement, through secret ballot elections, free             about its ﬁduciary activities. See Note 1F, Fiduciary
democratic choice by employees as to whether they wish to        Activities, for additional information.
be represented by a union in dealing with their employers
and, if so, by which union; and (2) to prevent and remedy        The Statement of Net Cost presents the gross costs of
unlawful acts, called unfair labor practices (ULP), by either    programs less earned revenue to arrive at the net cost of
employers, unions, or both. The NLRB’s authority is divided      operations for both programs and for the Agency as a whole.
both by law and delegation. The ﬁve-member Board
(Board) primarily acts as a quasi-judicial body in deciding      The Statement of Changes in Net Position reports beginning
cases on formal records. The General Counsel investigates        balances, budgetary and other ﬁnancing sources, and net
and prosecutes ULP charges before administrative law             cost of operations, to arrive at ending balances.
judges, whose decisions may be appealed to the Board;
and, on behalf of the Board, conducts secret ballot              The Statement of Budgetary Resources provides
elections to determine whether employees wish to be              information about how budgetary resources were made
represented by a union.                                          available as well as their status at the end of the period.
                                                                 Recognition and measurement of budgetary information
B. Basis of Accounting and Presentation                          reported on this statement is based on budget
                                                                 terminology, deﬁnitions, and guidance in OMB Circular
These ﬁnancial statements have been prepared to report           No. A-11, Preparation, Submission, and Execution of the
the ﬁnancial position, net cost, changes in net position,        Budget, dated August 2010.
and budgetary resources of the NLRB as required by the
Accountability of Tax Dollars Act of 2002. These ﬁnancial        The Agency is required to be in substantial compliance
statements have been prepared from the books and records         with all applicable accounting principles and standards
of the NLRB in accordance with accounting principles             established, issued, and implemented by the FASAB, which
generally accepted in the United States of America (GAAP),       is recognized by the American Institute of Certiﬁed Public
and the form and content requirements of the Ofﬁce               Accountants (AICPA) as the entity to establish GAAP for
of Management and Budget (OMB) Circular No. A-136,               the federal government. The Federal Financial Management
Financial Reporting Requirements, revised as of September        Integrity Act (FFMIA) of 1996 requires the Agency to
29, 2010. GAAP for federal entities are the standards            comply substantially with (1) federal ﬁnancial management
                                                                 systems requirements, (2) applicable federal accounting
standards, and (3) the U.S. Government Standard General            an appropriate bargaining unit under the NLRA. The
Ledger at the transaction level.                                   NLRB must also determine which employees are properly
                                                                   included in the bargaining unit, conduct the election
The FY 2012 Budget of the United States (also known                if an election is determined to be warranted, hear and
as the President’s Budget) with actual numbers for FY              decide any post-election objections to the conduct of
2010 was not published at the time that these ﬁnancial             the election and, if the election is determined to have
statements were issued. The President’s Budget is expected         been fairly conducted, to certify its results.
to be published in February 2011 and will be available
from the United States Government Printing Ofﬁce. There            ULP Cases are initiated by individuals or organizations
are no differences in the actual amounts for FY 2009 that          through the ﬁling of a charge with the NLRB. If
have been reported in the FY 2011 Budget of the United             the NLRB Regional Ofﬁce believes that a charge has
States and the actual numbers that appear in the FY 2009           merit, it issues and prosecutes a complaint against
Statement of Budgetary Resources.                                  the charged party, unless settlement is reached. A
                                                                   complaint that is not settled or withdrawn is tried
OMB ﬁnancial statement reporting guidelines for FY 2010            before an administrative law judge (ALJ), who issues
require the presentation of comparative ﬁnancial statements        a decision, which may be appealed by any party to
for all of the principal ﬁnancial statements. The NLRB is          the Board. The Board acts in such matters as a quasi-
presenting comparative FY 2010 ﬁnancial statements for the         judicial body, deciding cases on the basis of the formal
Balance Sheet, Statement of Net Cost, Statement of Changes         trial record according to the law and the body of case
in Net Position, and Statement of Budgetary Resources, and         law that has been developed by the Board and the
these statements have been prepared in accordance with             federal courts.
generally accepted accounting principles.
                                                                C. Budgets and Budgetary Accounting
The ﬁnancial statements should be read with the realization
that they are for a component of the United States              Congress annually adopts a budget appropriation that
Government, a sovereign entity. One implication of this         provides the NLRB with authority to use funds from
is that liabilities cannot be liquidated without legislation    the U.S. Treasury (Treasury) to meet operating expense
that provides resources and legal authority to do so.           requirements. The NLRB has single year budgetary
The accounting structure of federal agencies is designed to     authority and all unobligated amounts at year-end are
reﬂect both accrual and budgetary accounting transactions.      expired. At the end of the ﬁfth year, all amounts not
Under the accrual method of accounting, revenues are            expended are canceled. All revenue received from other
recognized when earned, and expenses are recognized when        sources must be returned to the Treasury.
a liability is incurred, without regard to receipt or payment
of cash.                                                        Budgetary accounting measures appropriation and
                                                                consumption of budget/spending authority or other
The budgetary accounting principles, on the other               budgetary resources and facilitates compliance with
hand, are designed to recognize the obligation of funds         legal constraints and controls over the use of federal
according to legal requirements, which in many cases is         funds. Under budgetary reporting principles, budgetary
prior to the occurrence of an accrual based transaction.        resources are consumed at the time of purchase. Assets
The recognition of budgetary accounting transactions is         and liabilities, which do not consume current budgetary
essential for compliance with legal constraints and controls    resources, are not reported, and only those liabilities
over the use of federal funds.                                  for which valid obligations have been established are
                                                                considered to consume budgetary resources.
The information as presented on the Statement of Net Cost
is based on the programs below:                                 Transactions are recorded on an accrual accounting basis.
    Representation Cases are initiated by the ﬁling of          Under the accrual method, revenues are recognized when
    a petition by an employee, a group of employees,            earned and expenses are recognized when a liability is
    an individual or labor organization acting on their         incurred, without regard to receipt or payment of cash.
    behalf, or in some cases by an employer. The petitioner
    requests an election to determine whether a union           D. Financing Sources
    represents, or in some cases continues to represent, a
    majority of the employees in an appropriate bargaining      The NLRB receives funds to support its programs through
    unit and therefore should be certiﬁed as the employees’     annual appropriations. These funds may be used to pay
    bargaining representative. The role of the Agency is to     program and administrative expenses (primarily salaries and
    investigate the petition and, if necessary, conduct a       beneﬁts, occupancy, travel, and contractual service costs).
    hearing to determine whether the employees constitute
For accounting purposes, appropriations are recognized           information about its ﬁduciary activities. See Note 3,
as ﬁnancing sources (appropriations used) at the time            Fiduciary Activities.
expenses are accrued. Appropriations expended for general
property, plant and equipment are recognized as expenses         The federal government securities include Treasury market-
when the asset is consumed in operations (depreciation           based securities issued by the Federal Investment Branch
and amortization).                                               of the Bureau of the Public Debt. Market-based securities
                                                                 are Treasury securities that are not traded on any securities
E. Fund Balance with the Treasury                                exchange, but mirror the prices of marketable securities
                                                                 with similar terms.
The NLRB does not maintain cash in commercial bank
accounts. Cash receipts and disbursements are processed          It is expected that Investments will be held until maturity;
by the Treasury. The agency’s records are reconciled with        therefore they are valued at cost and adjusted for
those of Treasury. The fund balances with the Treasury           amortization of discounts, if applicable. The discounts are
are primarily appropriated funds that are available to pay       recognized as adjustments to interest income, utilizing
current liabilities and to ﬁnance authorized purchases.          the straight-line method of amortization for short-
Funds with the Treasury represent the NLRB’s right to draw       term securities (i.e., bills). Investments, redemptions,
on the Treasury for allowable expenditures. In addition,         and reinvestments are controlled and processed by the
funds held with the Treasury also include escrow funds that      Department of the Treasury.
are not appropriated but are backpay funds that are the
standard Board remedy whenever a violation of the NLRA           There exists a signed Memorandum of Understanding
has resulted in a loss of employment or earnings. Effective      (MOU) between the NLRB and the Treasury establishing the
for the period beginning after September 30, 2008, the           policies and procedures that the NLRB and the Treasury
cash received and the investments made for backpay               agree to follow for investing monies in, and redeeming
funds will not be recognized on the balance sheet of any         investments held by, the deposit fund account in Treasury.
federal entity. A note disclosure is still required to provide
information about its ﬁduciary activities. See Note 1F,          See Note 3 for additional information on Fiduciary
Fiduciary Activities, for further explanation.                   Activities.

See Note 2 for additional information on Fund Balance            G. Advances
with Treasury.
                                                                 Advances consist of amounts advanced by the NLRB for
F. Fiduciary Activities                                          the transit subsidy program, United States Postal Service
                                                                 for penalty mail and for commercial payment systems for
Fiduciary activities are the collection or receipt, and the      postage.
management, protection, accounting, and investment, and
disposition by the Federal Government of cash or other           See Note 4 for additional information on the Advances.
assets in which non-Federal individuals or entities have
an ownership interest that the Federal Government must           H. Accounts Receivable, Net of Allowance for
uphold. Fiduciary cash and other assets are not assets of        Doubtful Accounts
the Federal Government. Beginning in FY 2009, ﬁduciary
activities will no longer be recognized on the proprietary       Accounts Receivable primarily consists of health beneﬁt
ﬁnancial statements, but they are required to be reported        premiums due the NLRB from Agency employees. Accounts
on schedules in the notes to the ﬁnancial statements. (see       receivable are stated net of allowance for doubtful
SFFAS No. 31, Accounting for Fiduciary Activities).              accounts. The allowance is estimated based on an aging
                                                                 of account balances, past collection experience, and an
The ﬁduciary funds collected by NLRB and held in                 analysis of outstanding accounts at year end.
escrow accounts with the Treasury are funds that are not
appropriated but are backpay funds that are the standard         See Note 5 for additional information on Accounts Receivable.
Board remedy whenever a violation of the NLRA has
resulted in a loss of employment or earnings. The NLRB           I. General Property, Plant and Equipment
invests funds in federal government securities for backpay
that are held in the escrow account at Treasury. Effective       General property, plant and equipment consist primarily of
for the period beginning after September 30, 2008, the           telephone systems, computer hardware and software. The
cash received and the investments made for backpay               Agency has no real property.
funds will not be recognized on the balance sheet of any
federal entity. A note disclosure is still required to provide
General property, plant and equipment with a cost of            liability can be paid by the NLRB absent an appropriation.
$15,000 or more per unit is capitalized at cost and             Liabilities for which an appropriation has not been
depreciated using the straight-line method over the useful      enacted are therefore classiﬁed as Liabilities Not Covered
life. Other property items are expensed when purchased.         by Budgetary Resources and there is no certainty that the
Expenditures for repairs and maintenance are charged to         appropriation will be enacted. Also, liabilities of the NLRB
operating expenses as incurred. The useful life for this        arising from other than contracts can be abrogated by the
category is ﬁve to twelve years. There are no restrictions      government, acting in its sovereign capacity.
on the use or convertibility of general property, plant and
equipment.                                                      L. Liabilities Not Covered by Budgetary Resources
Internal Use Software. Internal use software (IUS)              Liabilities represent the amount of monies or other
includes purchased commercial off-the-shelf software            resources that are likely to be paid by the NLRB as the
(COTS), contractor-developed software, and software that        result of a transaction or event that has already occurred.
was internally developed by Agency employees. IUS is            Liabilities not covered by budgetary resources result from
capitalized at cost if the acquisition cost is $100,000 or      the receipts of goods or services in the current or prior
more. For COTS software, the capitalized costs include          periods, or the occurrence of eligible events in the current
the amount paid to the vendor for the software; for             or prior periods for which appropriations, revenues, or other
contractor-developed software it includes the amount paid       ﬁnancing sources of funds necessary to pay the liabilities
to a contractor to design, program, install, and implement      have not been made available through Congressional
the software. Capitalized costs for internally developed        appropriations or current earnings of the reporting entity.
software include the full cost (direct and indirect) incurred
during the software development stage. The estimated            Intragovernmental
useful life is two to ﬁve years for calculating amortization    The U.S. Department of Labor (DOL) paid Federal Employees
of software using the straight-line method.                     Compensation Act (FECA) beneﬁts on behalf of the NLRB
                                                                which had not been billed or paid by the NLRB as of
Internal Use Software in Development. Internal use              September 30, 2010 and 2009, respectively.
software in development is software that is being
developed, but not yet put into production. At the time         Federal Employees Workers’ Compensation Program.
the software is moved into production the costs will be         The Federal Employees Workers’ Compensation Program
moved into the IUS account described above. The NLRB            (FECA) provides income and medical cost protection to
is currently undertaking a major software development           covered federal civilian employees injured on the job, to
project called the Next Generation Case Management              employees who have incurred work-related occupational
System (NXGen) that will replace a number of case tracking      diseases, and to beneﬁciaries of employees whose deaths
systems with one enterprise-wide system. NXGen will             are attributable to job-related injuries or occupational
support the President’s Management Agenda, such as for          diseases. The FECA program is administered by DOL, which
e-Gov, E-Filing, e-FOIA, and public Web-based access            pays valid claims and subsequently seeks reimbursement
to NLRB data. This project has been a multiple year             from the NLRB for these paid claims.
undertaking in which a large portion of the system will be
rolled out in FY 2011. The overall cost of this project is      The FECA liability consists of two components. The ﬁrst
expected to exceed $14 million.                                 component is based on actual claims paid by DOL but not
                                                                yet reimbursed by the NLRB. The NLRB reimburses DOL for
See Note 6 for additional information on General Property,      the amount of the actual claims as funds are appropriated
Plant and Equipment, Net.                                       for this purpose. There is generally a two- to three-year
                                                                time period between payment by DOL and reimbursement
J. Non-Entity Assets                                            by the NLRB. As a result, the NLRB recognizes a liability
                                                                for the actual claims paid by DOL and to be reimbursed by
Assets held by the NLRB that are not available to the NLRB      the NLRB.
for obligation are considered non-entity assets.
                                                                The second component is the estimated liability for future
See Note 9 for additional information on Non-Entity Assets.     beneﬁt payments as a result of past events. This liability
                                                                includes death, disability, medical, and miscellaneous
K. Liabilities                                                  costs. The NLRB determines this component annually, as
                                                                of September 30, using a method that considers historical
Liabilities represent the amount of monies or other resources   beneﬁt payment patterns.
that are likely to be paid by the NLRB as the result of a
transaction or event that has already occurred. However, no     The NLRB uses the methodology of reviewing the ages
of the claimant on a case-by-case basis (because of the       is included in personnel compensation and beneﬁt costs.
small number of claimants) to evaluate the estimated          Each year, the balance in the accrued annual leave liability
FECA liability. The determination was made to use the life    account is adjusted to reﬂect current pay rates. Annual
expectancy of claimants of 80 and 84 years for male and       leave earned but not taken, within established limits, is
female, respectively.                                         funded from future ﬁnancing sources. Sick leave and other
                                                              types of non-vested leave are expensed as taken.
See Notes 8 and 10 for additional information on the
FECA liability.                                               See Note 10 for additional information on Annual Leave.

Other                                                         P. Life Insurance and Retirement Plans
Accrued annual leave represents the amount of annual
leave earned by the NLRB employees but not yet taken.         Most of NLRB employees are entitled to participate in
                                                              the FEGLI Program. Participating employees can obtain
See Notes 8 and 10 for additional information on              “basic life” term life insurance, with the employee paying
Annual Leave.                                                 two-thirds of the cost and the NLRB paying one-third.
                                                              Additional coverage is optional, to be paid fully by the
M. Contingencies                                              employee. The basic life coverage may be continued into
                                                              retirement if certain requirements are met. The Ofﬁce of
The criteria for recognizing contingencies for claims are:    Personnel Management (OPM) administers this program and
   1. a past event or exchange transaction has occurred as    is responsible for the reporting of liabilities. For each ﬁscal
      of the date of the statements;                          year, OPM calculates the U.S. Government’s service cost
   2. a future outﬂow or other sacriﬁce of resources is       for the post-retirement portion of the basic life coverage.
      probable; and                                           Because the NLRB’s contributions to the basic life coverage
   3. the future outﬂow or sacriﬁce of resources is           are fully allocated by OPM to the pre-retirement portion of
      measurable (reasonably estimated).                      coverage, the NLRB has recognized the entire service cost
                                                              of the post-retirement portion of basic life coverage as an
The NLRB recognizes material contingent liabilities in the    imputed cost and imputed ﬁnancing source.
form of claims, legal action, administrative proceedings
and suits that have been brought to the attention of          Retirement Programs.
legal counsel, some of which will be paid by the Treasury     The NLRB employees participate in one of two retirement
Judgment Fund. It is the opinion of management and legal      programs, either the Civil Service Retirement System
counsel that the ultimate resolution of these proceedings,    (CSRS), a deﬁned beneﬁt plan, or the Federal Employees
actions and claims, will not materially affect the ﬁnancial   Retirement System (FERS), a deﬁned beneﬁt and
position or results of operations.                            contribution plan. On January 1, 1987, FERS went
                                                              into effect pursuant to Public Law 99-335. Most of
Contingencies are recorded when losses are probable, and      the NLRB employees hired after December 31, 1983,
the cost is measurable. When an estimate of contingent        are automatically covered by FERS and Social Security.
losses includes a range of possible costs, the most likely    Employees hired prior to January 1, 1984, could elect to
cost is reported; where no cost is more likely than any       either join FERS and Social Security or remain in CSRS.
other, the lowest possible cost in the range is reported.     Employees covered by CSRS are not subject to Social
This item will normally be paid from appropriated funds.      Security taxes, nor are they entitled to accrue Social
                                                              Security beneﬁts for wages subject to CSRS. The NLRB
See Note 16 for additional information on Contingencies.      contributes a matching contribution equal to 7 percent of
                                                              pay for CSRS employees.
N. Unexpended Appropriations
                                                              FERS consists of Social Security, a basic annuity plan, and
Unexpended appropriations represent the amount of the         the Thrift Savings Plan. The Agency and the employee
NLRB’s unexpended appropriated spending authority as of       contribute to Social Security and the basic annuity plan at
the ﬁscal year-end that is unliquidated or is unobligated     rates prescribed by law. In addition, the Agency is required
and has not lapsed, been rescinded, or withdrawn.             to contribute to the Thrift Savings Plan a minimum of 1
                                                              percent per year of the basic pay of employees covered by
O. Annual, Sick, and Other Leave                              this system and to match voluntary employee contributions
                                                              up to 3 percent of the employee’s basic pay, and one-half
Annual and Sick Leave Program.                                of contributions between 3 percent and 5 percent of basic
Annual leave is accrued as it is earned by employees and      pay. For FERS employees, the Agency also contributes
                                                              the employer’s share of Medicare. The maximum amount
of base pay that an employee participating in FERS may        Q. Operating Leases
contribute is $16,500 in calendar year (CY) 2011 to this
plan. Employees belonging to CSRS may also contribute         The NLRB has no capital lease liability or capital leases.
up to $16,500 of their salary in CY 2011 and receive no       Operating leases consist of real and personal property
matching contribution from the NLRB. The maximum for          leases with the General Services Administration (GSA).
catch-up contributions for CY 2011 is $5,500. For CY          Regarding NLRB’s building lease, the GSA entered into
2011, the regular and catch-up contributions may not          a lease agreement for the NLRB’s rental of building
exceed $22,000. The sum of the employees’ and the NLRB’s      space. The NLRB pays GSA a standard level users charge
contributions are transferred to the Federal Retirement       for the annual rental. The standard level users charge
Thrift Investment Board.                                      approximates the commercial rental rates for similar
                                                              properties. The NLRB is not legally a party to any
OPM is responsible for reporting assets, accumulated          building lease agreements, so it does not record GSA-
plan beneﬁts, and unfunded liabilities, if any, applicable    owned properties. The real property leases are for NLRB’s
to CSRS participants and FERS employees government-           Headquarters and Regional Ofﬁces and the personal
wide, including the NLRB employees. The NLRB has              property leases are for GSA cars.
recognized an imputed cost and imputed ﬁnancing source
for the difference between the estimated service cost and     See Note 12 for additional information on Operating Leases.
the contributions made by the NLRB and covered CSRS
employees.                                                    R. Net Position
The NLRB does not report on its ﬁnancial statements FERS      Net position is the residual difference between assets and
and CSRS assets, accumulated plan beneﬁts, or unfunded        liabilities and is composed of unexpended appropriations and
liabilities, if any, applicable to its employees. Reporting   cumulative results of operations. Unexpended appropriations
such amounts is the responsibility of OPM. The portion of     represent the amount of unobligated and unexpended
the current and estimated future outlays for CSRS not paid    budget authority. Unobligated balances are the amount of
by the NLRB is, in accordance with Statement of Federal       appropriations or other authority remaining after deducting
Financial Accounting Standards (SFFAS) No. 5, Accounting      the cumulative obligations from the amount available for
for Liabilities of the Federal Government, included in the    obligation. The cumulative results of operations are the net
NLRB’s ﬁnancial statements as an imputed ﬁnancing source.     result of the NLRB’s operations since inception.
Liabilities for future pension payments and other future
payments for retired employees who participate in the
                                                              S. Use of Management Estimates
Federal Employees Health Beneﬁts and the FEGLI programs
are reported by OPM rather than the NLRB.
                                                              The preparation of the accompanying ﬁnancial statements
                                                              in accordance with accounting principles generally
SFFAS No. 5, Accounting for Liabilities of the Federal
                                                              accepted in the United States of America requires
Government, requires employing agencies to recognize the
                                                              management to make certain estimates and assumptions
cost of pensions and other retirement beneﬁts during their
                                                              that directly affect the results of reported assets, liabilities,
employees’ active years of service. OPM actuaries determine
                                                              revenues, and expenses. Actual results could differ from
pension cost factors by calculating the value of pension
                                                              these estimates.
beneﬁts expected to be paid in the future, and provide
these factors to the agency for current period expense
reporting. Information was also provided by OPM regarding     T. Tax Status
the full cost of health and life insurance beneﬁts.
                                                              The NLRB, as an independent Board of the Executive
In FY 2010, the NLRB, utilizing OPM provided cost factors,    Branch, a federal agency, is not subject to federal, state,
recognized $9,546,185 of pension expenses, $9,901,409 of      or local income taxes, and, accordingly, no provision for
post-retirement health beneﬁts expenses, and $28,822 of       income tax is recorded.
post-retirement life insurance expenses, beyond amounts
actually paid. The NLRB recognized offsetting revenue of      U. Comparative Data
$19,476,416 as an imputed ﬁnancing source to the extent
that these intragovernmental expenses will be paid by OPM.    Comparative data for the prior year have been presented for
                                                              the principal ﬁnancial statements and their related notes.
See Note 13 for additional information
V. Subsequent Events                                           Obligated and unobligated balances reported for the status
                                                               of Fund Balance with Treasury do not agree with obligated
Subsequent events and transactions occurring after             and unobligated balances reported on the Statement
September 30, 2010 through the date of the auditor’s           of Budgetary Resources because the Fund Balance with
                                                               Treasury includes items for which budgetary resources are
opinion have been evaluated for potential recognition
                                                               not recorded, such as deposit funds and miscellaneous
or disclosure in the ﬁnancial statements. The date of the
                                                               receipts.
auditors’ opinion also represents the date that the ﬁnancial
statements were available to be issued.                        Status of Fund Balance with Treasury as of September 30,
                                                               2010 and September 30, 2009 consists of the following:

                                                               Fund Balance with Treasury by Availability:
NOTE 2.                                                                  (in thousands)            FY 2010           FY 2009
FUND BALANCE WITH                                               Unobligated Balance
TREASURY
                                                                   Available                      $ 1,404        $      337
Treasury performs cash management activities for all federal       Unavailable                       3,072            3,835
agencies. The net activity represents Fund Balance with
Treasury. The Fund Balance with Treasury represents the         Obligated balance not
                                                                                                    32,061           22,972
right of the NLRB to draw down funds from Treasury for          yet disbursed
expenses and liabilities. Fund Balance with Treasury by
                                                                Non-budgetary fund
fund type as of September 30, 2010 and September 30,                                                   139              151
                                                                balance with Treasury
2009 consists of the following:
                                                                Totals                            $ 36,676       $ 27,295
Fund Balance with Treasury by Fund Type:
                                                Total Fund
 (in thousands) General Funds   Escrow Funds   Balance with
                                                 Treasury
    FY 2010
                                                               NOTE 3.
                  $ 36,537                       $ 36,537
 Entity Assests                                                FIDUCIARY ACTIVITIES
  Non-Entity
                                        139            139
   Assests                                                     Effective for the period beginning after September 30,
                                                               2008, the cash received and the investments made for
    Total                             $ 139      $ 36,676
                                                               backpay funds will not be recognized on the balance sheet
    FY 2009                                                    of any federal entity. A note disclosure is still required to
                  $ 27,144                        $ 27,144
 Entity Assests                                                provide information about its ﬁduciary activities. See Note
  Non-Entity                                                   1 F, Fiduciary Activities, for further explanation.
                                        151            151
   Assests
    Total         $ 27,144            $ 151      $ 27,295
                                                               Backpay funds are the standard Board remedy whenever a
                                                               violation of the NLRA has resulted in a loss of employment
                                                               or earnings. NLRB holds these funds in an escrow account
The status of the fund balance may be classiﬁed as             with Treasury or invests the funds that are authorized by
unobligated available, unobligated unavailable, and            the Regional Compliance Ofﬁcers and other management
obligated. Unobligated funds, depending on budget              ofﬁcials in market-based Treasury securities issued by the
authority, are generally available for new obligations in      Federal Investment Branch of the Bureau of Public Debt.
current operations. The unavailable balance includes
amounts appropriated in prior ﬁscal years, which are not       There exists a signed MOU between the NLRB and the U.S.
available to fund new obligations. The obligated but not       Treasury (Treasury) establishing the policies and procedures
yet disbursed balance represents amounts designated for        that the NLRB and the Treasury agree to follow for
payment of goods and services ordered but not yet received     investing monies in, and redeeming investments held by,
or goods and services received but for which payment has       the deposit fund account in Treasury.
not yet been made.
Schedule of Fiduciary Activity                               NOTE 4. ADVANCES
As of September 30, 2010 and 2009
        (in thousands)              FY 2010       FY 2009    Intragovernmental

 Fiduciary net assets,                                       Intragovernmental Advances to the United States Postal
                              $ 3,871)        $ 7,338)
 beginning of the year                                       Service (USPS) for September 30, 2010 was $ 23,336
    Fiduciary revenues            12,367)         15,388)    and $ 261,437 for September 30, 2009. The remainder
                                                             of the balance for FY 2009 was with the Department of
    Investment earnings                  1)             7)
                                                             Transportation for the transit subsidy.
    Disbursements to
    and on the behalf of          (13,460)        (18,862)
    beneﬁciaries
 Increase (Decrease) in
                              $ (1,092)       $ (3,467)      NOTE 5.
 ﬁduciary net assets
                                                             ACCOUNTS RECEIVABLE,
 Fiduciary net assets,
 end of year
                              $ 2,779)        $ 3,871)       NET OF ALLOWANCES FOR
                                                             DOUBTFUL ACCOUNTS
Fiduciary Net Assets                                         The FY 2010 intragovernmental accounts receivable is
As of September 30, 2010 and 2009                            zero and the FY 2009 amount was also zero:
        (in thousands)              FY 2010       FY 2009            (in thousands)            FY 2010        FY 2009
 Fiduciary Assets                                             With the public
    Cash and cash
                              $      2,779    $     1,487        Accounts receivable              $ 97          $ 38
    equivalents
    Investments                                     2,384        Allowance doubtful
                                                                                                   (4)            (2)
                                                                 accounts
 Fiduciary Liabilities
                                                              Accounts receivable-net             $ 93          $ 36

    Less: Liabilities                    –              –

 Total Fiduciary
                              $      2,779    $     3,871
 net assets
NOTE 6.                                                       NOTE 7.
GENERAL PROPERTY, PLANT                                       INTRAGOVERNMENTAL
AND EQUIPMENT, NET                                            ACCOUNTS PAYABLE
General property, plant and equipment consist of that         These accounts payables are with our federal trading
property which is used in operations and consumed             partners of whom the largest amounts are with the General
over time. The table below summarizes the cost and            Services Administration (GSA).
accumulated depreciation for general property, plant
and equipment.

Depreciation expense for the years ended September
30, 2010 and September 30, 2009 was $3,298,900 and
                                                              NOTE 8.
$1,211,053 (in dollars), respectively.                        LIABILITIES NOT COVERED
                                                              BY BUDGETARY RESOURCES
                                 Accumulated
  (in thousands)                                 Net Asset
                   Asset Cost    Depreciation/                Liabilities not covered by budgetary resources represent
      FY 2010                                     Value
                                 Amortization
                                                              amounts owed in excess of available congressionally
 Equipment          $    2,395         $ 1,839    $     556   appropriated funds or other amounts. The custodial
                                                              liability represents amounts collected from the public for
 Internal Use
 Software
                        15,929           6,181        9,748   court costs, freedom of information requests and other
                                                              miscellaneous amounts that must be transferred to
 Internal Use                                                 the Treasury.
 Software in             2,045               -        2,045
 Development
                                                              The composition of liabilities not covered by budgetary
 Totals             $ 20,369           $ 8,020   $ 12,349     resources as of September 30, 2010 and September 30,
                                                              2009, is as follows:


                                 Accumulated                          (in thousands)               FY 2010        FY 2009
  (in thousands)                                 Net Asset
                   Asset Cost    Depreciation/
      FY 2009                                     Value
                                 Amortization                  Intragovernmental:
 Equipment          $    1,854     $     1,543   $      311       FECA-Unfunded                $      642     $      785
 Internal Use
                         5,038           3,178        1,860    Total Intragovernmental         $      642     $      785
 Software
 Internal Use                                                     Estimated Future –
                                                                                                    1,747          2,511
 Software in             8,009               -        8,009       FECA
 Development

 Totals             $ 14,901       $     4,721   $ 10,180         Accrued Annual Leave             15,065         14,692

                                                               Total Liabilities not
                                                               covered by budgetary                 17,454        17,988
                                                               resources
                                                               Total Liabilities covered
                                                                                                   23,705         16,880
                                                               by budgetary resources

                                                               Total Liabilities               $ 41,159       $ 34,868
NOTE 9.                                                         NOTE 11.
NON-ENTITY ASSETS                                               INTRAGOVERNMENTAL
Non-Entity assets, restricted by nature, consist of
                                                                COSTS AND EXCHANGE
miscellaneous receipt accounts. These amounts represent         REVENUE
cash collected and accounts receivable (net of allowance for
doubtful accounts). The miscellaneous receipts represent        For the intragovernmental costs, the buyer and seller
court costs and freedom of information requests that must       are both federal entities. The earned revenue is the
be transferred to the Treasury.                                 reimbursable costs from other federal entities. The NLRB
                                                                provided administrative law judges’ services to other federal
The composition of non-entity assets as of September 30,        entities. There is no exchange revenue with the public.
2010 and September 30, 2009, is as follows:
                                                                          (in thousands)               FY 2010       FY 2009
         (in thousands)               FY 2010         FY 2009
                                                                 Resolve Representation
 Non-entity assets                                               Cases

    Fund Balance                                                    Intragovernmental Costs       $     9,635    $     8,839
                                  $       139    $       151
    with Treasury
                                                                    Costs with the Public              38,841         36,529
 Entity assets                    $ 49,003       $ 37,637        Total Net Cost -
                                                                 Resolve Representation           $ 48,476       $ 45,368
 Total Assets                     $ 49,142       $ 37,788        Cases


                                                                 Resolve Unfair Labor
                                                                 Practices
NOTE 10.                                                            Intragovernmental Costs       $ 48,753       $ 44,720
CUMULATIVE RESULTS
                                                                    Costs with the Public             198,830        186,697
OF OPERATIONS
                                                                 Total Net Cost -
                                                                 Resolve Unfair Labor             $ 247,583      $ 231,417
         (in thousands)               FY 2010         FY 2009    Practices

 FECA paid by DOL                 $      (226)    $     (305)
                                                                 Other
 FECA – Unfunded                         (642)          (785)
                                                                    Intragovernmental Costs        $       59    $      133
 Estimated Future FECA                 (1,747)        (2,511)
                                                                    Less: Intragovernmental
 Accrued Annual Leave                 (15,065)       (14,692)                                              59           133
                                                                    Earned Revenue
 General Property, Plant &
                                      12,349)        10,180)     Total Net Cost - Other                     –              –
 Equipment, Net

 Other                                   320)           341)
                                                                 Net Cost of Operations           $ 296,059      $ 276,785
 Cumulative Results
                                  $ (5,011)       $ (7,772)
 of Operations
NOTE 12.                                                     NOTE 13.
OPERATING LEASES                                             IMPUTED FINANCING
GSA Real Property. Most of NLRB’s facilities are rented      OPM pays pension and other future retirement beneﬁts
from the GSA, which charges rent that is intended to         on behalf of federal agencies for federal employees. OPM
approximate commercial rental rates. The terms of NLRB’s     provides rates for recording the estimated cost of pension
occupancy agreements (OA) with GSA will vary according       and other future retirement beneﬁts paid by OPM on
to whether the underlying assets are owned by GSA or         behalf of federal agencies. The costs of these beneﬁts are
another federal agency or rented by GSA from the private     reﬂected as imputed ﬁnancing in the consolidated ﬁnancial
sector. The NLRB has OAs with GSA, which sets forth terms    statements. Expenses of the NLRB paid or to be paid by
and conditions for the space the Agency will occupy for      other federal agencies at September 30, 2010 and 2009
an extended period of time. Included within the OAs are      consisted of:
120 to 180 day notiﬁcation requirements for the Agency to
release space. For purposes of disclosing future operating
lease payments in the table below, federally-owned leases               (in thousands)             FY 2010    FY 2009
are included in years FY 2011 through FY 2015.                Ofﬁce of
                                                              Personnel Management:
Rental expenses for operating leases as of September
                                                                 Pension expenses                 $ 9,546    $ 7,086
30, 2010 were $27,365,763 for Agency lease space and
$2,381,725 for Agency building security. For FY 2009 the         Federal employees
                                                                                                    9,901       9,166
operating lease costs were $27,793,326 and the Agency            health beneﬁts
building security portion was $2,260,673.                        Federal employees group life
                                                                                                       29          28
                                                                 insurance program

 Fiscal Year (in thousands)             GSA Real Property     Total Imputed Financing             $19,476    $16,280
 2011                                         $   28,052
 2012                                             28,753
 2013                                             29,472
 2014                                             30,209
                                                             NOTE 14.
 2015                                             30,964
                                                             APPROPRIATIONS RECEIVED
 Total Future Lease Costs                     $ 147,450      The NLRB received $283,400,000 and $262,595,000 in
                                                             warrants for the ﬁscal years ended September 30, 2010 and
                                                             2009, respectively. The amount shown on the Statement
                                                             of Budgetary Resources under caption “Permanently not
                                                             available” for FY 2010 was the cancelled appropriation
                                                             for FY 2005 for the amount of $1,753,478. For FY 2009,
                                                             the total amount was $1,000,514 for the cancelled
                                                             appropriation for FY 2004.
NOTE 15. STATEMENT OF                                                                                      Not Subject to
                                                                 (in thousands)         Apportioned
BUDGETARY RESOURCES                                                                                        Apportionment
                                                                                   Category    Category
                                                                 FY 2010                                       Total
The Statement of Budgetary Resources provides information                             A           B
about how budgetary resources were made available as             Obligations
well as their status at the end of the period. It is the only    Incurred:
ﬁnancial statement exclusively derived from the entity’s          Direct           $ 282,468          –       $ 282,468
budgetary general ledger in accordance with budgetary
                                                                   Reimbursable          59           –                 59
accounting rules that are incorporated into GAAP for the
Federal Government. The total Budgetary Resources of             Total
$287,002,747 as of September 30, 2010 and $267,262,453           Obligations       $ 282,527          –       $ 282,527
                                                                 Incurred
as of September 30, 2009, includes new budget authority,
unobligated balances at the beginning of the year,
spending authority from offsetting collections, recoveries       (in thousands)        Apportioned
                                                                                                          Not Subject to
of prior year obligations and permanently not available.                                                  Apportionment
The NLRB’s unobligated balance available at September 30,                          Category    Category
                                                                 FY 2009                                       Total
2010 was $1,403,931 and at September 30, 2009                                         A           B
was $336,774.                                                    Obligations
                                                                 Incurred:
Apportionment Categories of Obligations Incurred.
                                                                   Direct          $ 248,686   $ 14,272        $ 262,958
NLRB’s obligations incurred as of September 30, 2010
and September 30, 2009 by apportionment Category                   Reimbursable         133                            133
A and B is shown in the following table. Category A              Total
apportionments distribute budgetary resources by ﬁscal           Obligations       $ 248,819   $ 14,272        $ 263,091
quarters and Category B apportionments typically distribute      Incurred
budgetary resources by activities, projects, objects or a
combination of these categories. Beginning in FY 2010,
OMB agreed that it was not necessary for NLRB to separate
its information technology funding and therefore all            NOTE 16. CONTINGENCIES
obligations incurred were from one funding category.
                                                                The NLRB is involved in various lawsuits incidental
                                                                to its operations. In regard to one case involving an
                                                                NLRB employee, there is a reasonable possibility of
                                                                an unfavorable outcome and fees may be in excess
                                                                of $100,000 but not more than $200,000. While the
                                                                ultimate outcome of these matters is not presently
                                                                determinable, it is the opinion of management that
                                                                the resolution of outstanding claims will not have a
                                                                materially adverse effect on the ﬁnancial position of
                                                                the NLRB.
NOTE 17.
RECONCILIATION OF NET COST OF OPERATIONS
TO BUDGET
For the Month Ended September 30, 2010 and 2009

 (in thousands)                                                           FY 2010           FY 2009
 Resources Used to Finance Activities
 Current Year Gross Obligations                                         $ 282,527)        $ 263,091)


 Budgetary Resources from Offsetting Collections:
   Spending Authority from Offsetting Collections
     Earned                                                                                        –
     Collected                                                               (211)             (217)
   Recoveries of Prior Year Unpaid Obligations                               (973)             (840)


 Other Financing Resources:
   Imputed Financing Sources                                               19,476)           16,280)
 Total Resources Used to Finance Activity                               $ 300,819)        $ 278,314)


 Resources Used to Finance Items Not Part of the Net Cost
 of Operations
 Budgetary Obligations and Resources not in the Net Cost
 of Operations:
   Change in Undelivered Orders                                            (1,999)           (1,970)
   Current Year Capitalized Purchases                                      (5,468)           (2,481)


 Components of the Net Cost of Operations which do not Generate or Use Resources in the
 Reporting Period
 Revenues without Current Year Budgetary Effect:
   Other Financing Sources Not in the Budget                              (19,476)          (16,280)


 Costs without Current Year Budgetary Effect:
   Depreciation and Amortization                                            3,299)            1,211)
   Future Funded Expenses                                                     229)              859)
   Imputed costs                                                           19,476)           16,280)
   Bad Debt Expense                                                             8)                2)

   Other Expenses Not Requiring Budgetary Resources                          (829)              850)

 Net Cost of Operations                                                $ 296,059)         $ 276,785)
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board

Memorandum




To:    David Berry, Inspector General       .     ?t:--
From: Wilma B. Liebman, Chairman     :.{V '//'
      Lafe Solomon, Acting General Counselp

Date: December 7,2010

Re:    Response to Draft Management Letter of Carmichael Brasher Tuvell &
       Company on Audit of National Labor Relations Board's Fiscal Year 2010
       Financial Statements (OIG-F-15-11-01a) (the "Draft Management Letter")


We are pleased to have this opportunity to respond to the Draft Management
Letter which you provided to us on November 29.2010.

As we have previously expressed, and as reflected in the Draft Management
Letter, we take seriously the finding of significant deficiency in internal control.
This memorandum sets forth our response to the specific recommendations
contained in the Draft Management Letter.

The recommendations are clustered around four discreet issues and one more
generalized concern. Issues Numbers 2 and 4 involve non-compliance with
proper recording and bona fide needs rules for certain court reporting contracts
and training expenses. The recommendations to address these issues are for
the Agency to de-obligate the funds (except for the court reporting amounts
actually used in FY2010) and record obligations for the FY2011 requirements
against FY2011 funds as they occur. These issues have been referred to the
Comptroller General for a merits determination and we will defer formulating a
course of action until that decision is received .

Issues Numbers 3 and 5 involve Antideficiency Act violations relating to a
personal services contract and to certain OEEO program food expenses . We
are in agreement with the recommendations. Currently we are drafting an
appropriate report in accordance with OMS guidance.
Issue Number 1 involves the finding of significant deficiency in internal control.
The four recommendations-particularly the recommendation to create a new
Chief Financial Officer position outside of the Department of Administration-
implicate fundamental structural issues for the Agency. Before taking any action,
we plan to undertake a comprehensive review of the Agency's financial
management structure, including the possible engagement of outside experts. To
that end, we have made initial contact with the National Academy of Public
Administration for possible consulting assistance.

We appreciate both your efforts and the work of Carmichael Brasher Tuvell &
Company to bring these important issues to our attention. We remain committed
to making changes as necessary or appropriate to ensure a properly controlled
financial environment for the Agency.

Cc: The Board
    Director of Administration
    Chief Information Officer
